Office of
INSPECTOR GENERAL



----------
 Semiannual Report



 October 1, 1998 - March 31, 1999




                                    April 1999
       INSPECTOR GENERAL




        UNITED STATES INTERNATIONAL TRADE COMMISSION

                                    WASHINGTON, D.C. 20436
        April 30, 1999

        TO: THE COMMISSION AND THE llNITED STATES CONGRESS

        I hereby submit this Semiannual Report: October I, fl)1J?( - March 31, fl)IJIJ, which
        summarizes the major activities and accomplishments ofthe Office oflnspector General
        (OIG), U.S. International Trade Commission. The submission of this report is in
        accordance with the Inspector General Act of 1978, as amended (IG Act). Section 5 of
        the IG Act requires that the Chairman transmit this report to the appropriate committees
        or subcommittees of the Congress within 30 days of its receipt.

        OIG issued four audit reports this period, addressing significant program and financial
        functions of the Commission. These were:

                Evaluation ofthe Commission's Efforts to Preparefor Sunset Reviews. The
                Commission published rules and made sufficient efforts to locate historical
                documents, obtain staff, and provide for related expenses to conduct sunset
                reviews. The workyears, based on certain assumptions, were calculated fairly
                accurately. However, the workyear estimates were not based upon an adequate
                analysis of the transition duty orders and significantly overstated the resources
                needed. The Commission requested a much lower level of resources to conduct
                sunset reviews in the fiscal year 1999 budget justification.

                Review of the Commission Methods Used to Compose PUblications. Most
                reports, including those with the highest priority, were prepared by the program
                offices for printing. The Commission's Office of Publishing received about a
                third ofall publications and only used the professional software package on half
                of those publications, which were mostly discretionary reports. The Office of
                Publishing spent a significant amount ofresources "undoing" the format drafted
                by program staff.

                Evaluation ofthe Commission's Preparationfor the Year 2000. Commission
                efforts to address the Y2K problem were insufficient to ensure a reasonable
                level of risk to uninterrupted operation in the year 2000.

                Audit of the USITC Financial Statements for Fiscal Years J998 and J99 7.
                The statements present fairly, in all material respects, the financial position of
                USITC. The internal control structure and its operation were considered to have
                two material weaknesses: accounting for fixed assets and accounts receivable.



March 1999 Semiannual Report
        In the prior period, OIG completed an investigation of the Commission's car pool
        subsidy program and found twelve subjects who were violating provisions of the
        program. Eleven subjects were given oral or written reprimands. Five of the subjects are
        making restitution totaling nearly $3,000.

        OIG conducted an investigation regarding allegations concerning the Commission's
        procurement of an economic model. OIG found that the sole source justification
        incorrectly identified the proposal as unsolicited; the contract was only partially fulfilled
        in that the data provided was not in the requested format, Commission employees may
        have done some work that was to be delivered as part ofthe contract; and the Contracting
        Officer's Technical Representative had a relationship with the main contract employee
        which gave the appearance of impropriety. The possible ethics violation was referred to
        the Designated Agency Ethics Official for review.

        During this period, OIG issued two inspection reports. In a Review or Commission 's
        Passport System's Security, OIG found that within the limited parameters of this
        assessment, OIG was unable to penetrate into the Passport system or the system
        protected by Passport In a Followup Review ofthe Commission 's Ability to Report on
        Performance Measurement Goals, OIG found that the various office directors were
        either collecting data or making plans for virtually all performance indicators.

        October 12 was the 20 th anniversary of the passage of the IG Act. The President signed
        a joint resolution marking this milestone. This period also had substantial activity
        concerning the independence ofOIGs, particularly those in designated agencies, which
        may need to be addressed by amendments to the IG Act.

         I appreciate the support ofall Commission employees in achieving the accomplishments
         set forth in this report.

                                                                       // dlL~


                                                        A
                                                                 d
                                                                lei'fuR:, /&/t!/1t1 ''1
                                                               Jane E. Altenhofen
                                                               Inspector General




March 1999 Semiannual Report                              \1
COMMISSION PROFILE
                The Commission is a quasi-judicial, independent, nonpartisan agency established by Congress
                with broad investigative powers on matters of trade. The Commission has a unique mission
                to develop factual, objective research and information on a wide variety of matters pertaining
                to international trade. Major Commission activities include: determining whether U.S.
                industries are materially injured by reason of subsidized imports or imports sold at less than
                fair value; directing action against such unfair trade practices as patent, trademark, and
                copyright infringement; conducting studies on tariff and trade issues; and participating in the
                development of statistical data on imports, exports, and domestic production and the
                establishment of an international harmonized commodity code.

                The Commission conducts investigations under several statutory provisions, generally upon
                petition or complaint, with respect to the impact of imports on U.S. industries. The
                Commission also provides advice and information, upon request, to the President and the
                Congress on tariff and trade matters. When appropriate, the Commission conducts public
                hearings and evaluates testimony and other information in making findings and
                recommendations. Decisions of the Commission under certain statutory provisions
                administered by the Commission are binding and subject to judicial review.

                The Commission has six Commissioners, appointed by the President and confirmed by the
                Senate, who serve one term of nine years, unless appointed to fill an unexpired term. The
                Chairman and Vice Chairman are designated by the President and serve a two-year statutory
                term. No more than three Commissioners may be ofthe same political party, and the Chairman
                must be of a different political party than the Chairman of the immediately preceding term.
                All six positions on the Commission are currently filled.

                During this period, no changes in the composition of the Commission occurred.

                In Fiscal Year (FY) 1999, there are 394.5 positions funded at the $44.4 million level. All of
                the Commission employees are located in one building at 500 E Street, SW, Washington, D.C.




The Commission recognized four employees, including the Inspector General, in March 1999 for Women's
History Month. From lett to right, EIizabeth Root, Diane Whitfield-Gaines, Jane Altenhofen, and Monica Reed.




March 1999 Semiannual Report
                        THE WHITE HOUSE

                             WASHINGTON

                       October 5, 1998




      I am pleased to congratulate the Offices of Inspector
General as our nation marks the 20th anniversary of the
passage of the Inspector General Act.

     When President Carter signed the Inspector General Act
into law on October 12, 1978, not even the bill's sponsors
fully realized how important the Inspectors General would
become to the functioning of the federal government. Today,
there are Offices of Inspector General in each of the major
federal agencies. Your work has returned billions of
dollars to the national treasury and has enabled federal
managers to make important improvements to agency operations
and public services.

      In many instances, your work has prevented attempts by
companies and individuals to defraud the government. You have
also worked with program managers to find ways to make federal
programs less vulnerable to fraud. Through audits, inspec-
tions, investigations, and technical advice to management, you
have made important and lasting contributions to the integrity
and security of our government.

     On behalf of the American people, I thank you and your
staffs for your professionalism and commitment to excellence.
As you mark this milestone, I extend best wishes for a wonder-
ful anniversary celebration and every future success.
THE OFFICE OF INSPECTOR GENERAL
The Commission established the Office of Inspector General (OIG) pursuant to the 1988 amendments to the
Inspector General Act (IG Act). The Inspector General reports directly to the Chairman, subject to the
limitations of section 331 of the Tariff Act of 1930 (19 U.S.c. § 1331). The Inspector General is responsible
for directing and carrying out audits, investigations, and inspections relating to Commission programs and
operations. The Inspector General also recommends and comments on proposed legislation, regulations, and
procedures as to their economy, efficiency and effectiveness. Certain information and statistics that are required
by section 5(a) of the IG Act to be included in the semiannual reports are summarized in Attachment A.




                    October 12, 1998, was the 20 th Anniversary of IG Act, illustrated above
                 in a commemorative poster next to the Inspectors General Vision Statement.


RESOURCES

I~_I
 FY 1999
                          An appropriation was enacted on October 21, 1998, providing $44,495,000 for
                          salaries and expenses for FY 1999, although funding will terminate on June 15, 1999.
                          OIG was allocated $75,000 for audit and review services in December 1998.

                          The final staffing plan, dated December I, 1998, authorized three full-time equivalent
                          positions for permanent staff in OIG based on a funding level for 430.5 full-time
                          equivalents.

March 1999 Semiannual Report                                         2
AUDIT ACCOMPLISHMENTS
                         Four audit reports were issued during this period. These were:
    Audits and
    Reviews
                                         IG-OI-99, Evaluation of the Commission's Efforts to Prepare for
                                         Sunset Reviews;

                                          IG-02-99, Review of the Commission Methods Used to Compose
                                          Publications;

                                          IG-03-99, Evaluation of the Commission's Preparation for the
                                          Year 2000; and

                                          IG-04-99, Audit of the lJSITC Financial Statements for Fiscal
                                          Years 1998 and 1997.

                         The audit reports are summarized in Attachment B.

                         As of March 31, 1999, ongoing audits included:

                                          Audit of the USITC Financial Statements for Fiscal Years 1999 and
                                          1998; and

                                          Review of the Information Resources Management Function.


I   Sunset Reviews   I   In Audit Report IG-OI-99, Evaluation of the Commission's Efforts to Prepare for
                         Sunset Reviews, OIG found the Commission published rules and made sufficient
                         efforts to locate historical documents, obtain staff, and provide for related expenses
                         to conduct sunset reviews. Workload estimates were calculated fairly accurately, but
                         were not based upon an adequate analysis of the transition duty orders. The estimates
                         assumed that no sunset investigations would be terminated, and that 10 percent would
                         be expedited but offset by more complicated cases. A detailed analysis of the orders
                         to determine how many were likely to be terminated or expedited was not considered
                         feasible because sufficient data was unavailable, and the cost of such an effort would
                         outweigh the benefits. Further, any expedited reviews would be offset by reviews
                         determined to be more complicated.

                         The assumption that a full review would be necessary for every sunset investigation
                         was significant because a terminated review requires minimal Commission resources
                         and an expedited review requires less than half the effort of a full review. OIG stated
                         the historic pattern of title VII investigations was readily available, and provided an
                         indication that some sunset reviews would be terminated.

                         The title VII figures would have provided a reasonable estimate of terminations.
                         According to statistics prepared by the Office of Investigations, an average of 26
                         percent (ranging from 4 to 68 percent) of the title VII cases filed from 1980 through
                         1996 were terminated. Of these, eight percent were terminated before the preliminary
                         Commission determination. Between July 1998 and March 1999, the Commission


    March 1999 Semiannual Report                                   3
                     initiated 56 grouped sunset reviews, covering 129 individual orders. Of these, 27
                     percent of the orders have been terminated. Statistics through December 31, 1998
                     show 17 percent of the reviews were expedited. The Commission had not determined
                     to extend the time limit on any full reviews that were extraordinarily complicated as
                     of March 31, 1999.

                     From October II, 1998, through March 13, 1999, only four workyears were charged
                     to the sunset code. Even if the workload increases substantially in the second half of
                     the year, as is expected, the actual work years will be significantly less than the 54
                     workyears estimated by the Budget Committee and the 22 workyears adopted by the
                     Commission for the budget justification.

                     In Audit Report IG-02-98, Review ofthe Commission Methods Used to Compose
Composition of       Publications, OIG found that the introduction ofadvanced word processing packages
Publications         had affected the method ofcomposing reports. The Commission Office of Publishing
                     did not receive most reports for composition, and the professional software package
                     was mostly used for composing discretionary reports. The Commission did not have
                     a written policy on which documents were to be submitted to the Office of Publishing
                     for composition, or the method to be used to compose documents.

                     The Commission publishes a number of documents every year as part of its mission.
                     These documents are mostly investigative, trade, or staff reports prepared by the
                     program offices. The Commission practice is to allow offices to decide whether and
                     which documents will be sent to the Office ofPublishing for composition. Nearly two-
                     thirds of the publications were not sent to the Office of Publishing, including most
                     reports with higher priority due to statutory requirements such as title VII reports and
                     most section 332 reports.

                                                                    January I, 1998 - March 31, 1999
                                                              Program Office               Publishing
                                                                Total-WP           Total        WP    INT
                      Pu blication:
                      Title VII Investigations                        33             0            0      0
                      Section 337 Investigations                       4             0            0      0
                      Section 332 Studies                             17             7            I      6
                      Industry and Trade Summaries                     I            15           15      0
                      International Economic Reviews                   0             6            0      6
                      Industry Trade and Technology                    4              I           I      0
                      Reviews
                      Miscellaneous*                                   9             4            0      4
                      Total Documents                                 68            33           17     16

                     *Includes the 1998 Harmonized TariffSchedules and Annual Report, a handbook on
                     title VII provisions, a summary ofstatutes, guidelines for hearings, a directory oftrade
                     analysts, a list of Commission publications, and staff research studies.




March 1999 Semiannual Report                                    4
                      Only a third of the FY 1999 Commission publications through April 1999 were
                      composed by the Office of Publishing. Of those, only half were composed on a
                      professional software package, and those were usually discretionary reports. The
                      Office of Publishing spent a significant amount of resources "undoing" the format
                      drafted by program staff.

                      In Audit Report IG-03-99, Evaluation ofthe Commission 's Preparation/or the Year
I Year 2000           2000, OIG found that the extent of the impact of the year 2000 (Y2K) problem on
                      Commission operations was not documented or well understood. Neither of the first
                      two phrases (awareness or assessment) in addressing the Y2K problem had been
                      completed on a Commission-wide basis. The Commission had not implemented an
                      institutional approach and overall Commission efforts to address the Y2K problem
                      were insufficient to ensure a reasonable level of risk to uninterrupted operation in the
                      year 2000.

                      The Chairman designated the Director of Operations as the agency official to oversee
                      the Commission's efforts to prepare for Y2K. The Director assembled a project team,
                      and reports to the Commission biweekly on progress.




                      In Audit Report IG-04-99, Audit ofthe USIf'(' Financial Statements/or Fiscal Years
 Financial            1998 and 1997, OIG issued a clean opinion as to the fairness of the USITC financial
 Statements           statements for the FYs ending September 30, 1998, and 1997. The auditors expressed
                      the opinion that the statements ofthe financial position ofUSITC as ofSeptember 30,
                      1998, and 1997, present fairly, in all material respects, the financial position of
                      USITC, and the results of its operations and its cash flows for the years then ended
                      were in conformity with general accepted accounting principles, except that
                      management had elected not to depreciate fixed assets.

                      The internal control structure and its operation were considered to have two material
                      weaknesses. These were accounting for fixed assets and accounts receivable. In
                      addition, several other areas of concern were reported in the management letter.




 March 1999 Semiannual Report                                    5
INSPECTIONS
                      During this period two inspection reports were issued.
I Reports Issued
                      Report No. 01-99, Evaluation of tile Commission's Passport System's Security,
Passport System's
                      December 24, 1998. The Commission introduced a new remote-access facility called
Security
                      Passport in August 1998. The objective ofthis inspection was to evaluate the security
                      of the Passport system and identify potential security risks. Within the limited
                      parameters of this evaluation OIG was unable to penetrate into the Passport system
                      or the system protected by Passport. However, certain vulnerabilities were identified
                      that could potentially be exploited to obtain such access.

                      OIG suggested that the Director of Information Services remove the employee names
                      found on the public servers, disable a system and two services, prevent the download
                      of certain files, and remove an option for mail service. The Director of Information
                      Services disabled a system as recommended,
                      and agreed to disable one service. The other       PASSP                    RT
                      suggestions could not be implemented
                      because the names and the files are public
                      information, and one system with low risk
                      cannot be separated from the service.

                      Report No. 02-99, Followup Review of tile Commission's Ability to Report on
 Performance          Performance Measurement Goals, December24,1998. OIG initiated this inspection
 Measurement          in October 1998 to verify and val idate selected data sources and information collection
 Goals                systems that support the Commission's FY 1999 annual performance plan. OIG found
                      considerable improvement over the form and content ofthe performance measurement
                      goals contained in the 1997 Strategic Plan. The various office directors assigned
                      responsibility for performance goals were collecting data or making plans for virtually
                      all performance indicators. In a few instances, OIG found the data sources and
                      information collection systems did not identify use by customers or critical dates
                      needed to evaluate measurement of the performance goal. OIG also found a few
                      instances where the performance goals and indicators could be clarified.

                      OIG suggestions included that the Director ofOperations determine whether strategic
                      goals for use by customers apply to the individual types of customers identified, or
                      non-ITC use in general, and ensure data collection systems include all necessary dates
                      to measure timeliness. The Director ofOperations implemented changes that included
                      modifying some customer use measures, and expanded some data collection systems.
                      In addition, the next version of the Strategic Plan will include clarified language for
                      some goals, and other goals may be revised or eliminated.




 March 1999 Semiannual Report                                    6
FRAUD, WASTE AND ABUSE
I Investigations       I     A summary of investigative activity is presented below.



             Case Workload                      Referrals Processed                     Investigative Results
    Open (1010 1/98)         5               Received                  2             Referrals for            0
                                                                                     Prosecution

    Initiated                2               Initiated Investigation   0             Referrals Declined for   0
                                                                                     Prosecution

    Closed                   5               Referred to Another       0              Administrative Action   II
                                             Agency OIG

    Open (3/3 1/99)          2               Evaluated but No          2
                                             Investigation Initiated


                             Five cases were open at the beginning of this reporting period. Two cases were
                             initiated during this reporting period. Five cases were closed this period, two of which
                             were open as of September 30, 1998. The closed cases involved the purchases of
                             business card supplies and T-shirts, health care fraud, falsification of data, and abuse
                             of the car pool program.

                             Two cases remain open. These involve reimbursement of program functions and
                             procurement of an economic model.

                             OIG conducted an investigation regarding allegations received on the Commission's
  Economic Model             procurement of an economic model. The allegations included that the contract was
                             improperly sole sourced, the Commission did not receive the model described in the
                             contract, and the relationship of the Contracting Officer's Technical Representative
                             (COTR) with the contractor was improper.

                             OIG issued a report on the investigation on January 27, 1999. OIG found that the sole
                             source justification incorrectly identified the proposal as unsolicited; the contract was
                             only partially fulfilled in that the data provided was not in the requested format,
                             Commission employees may have done some work that was to be delivered as part of
                             the contract; and the COTR had a relationship with the main contract employee which
                             gave the appearance of impropriety. The possible ethics violation was referred to the
                             Designated Agency Ethics Official for review.

                             OIG completed its investigation of the Commission's car pool subsidy program and
I Car Pool
--......1                    found twelve subjects who were violating provisions of the program. In the prior
                             semiannual, we reported the U.S. Attorney's office declined to prosecute and all
                             twelve subjects were referred to the appropriate office directors on September 2, 1998,
                             for administrative disposition.




  March 1999 Semiannual Report                                             7
                     In October 1998, OIG was notified that the Commission gave five employees written
                     reprimands and suspended them from participating in the program for one year from
                     the date of the reprimand. One of these employees paid $711.36 in November as
                     restitution. The other four employees agreed to pay $2134.08 in restitution via payroll
                     deductions beginning in April 1999. Six additional employees received oral
                     reprimands in September 1998. The Commission took no action with regard to one
                     employee.

                     A purchase request for supplies to print business cards was questioned as an eligible
Business Cards       expense. The General Accounting Office (GAO) had a long history of Comptroller
                     General decisions holding that appropriated funds may not be used to purchase
                     business cards except in limited circumstances. In August 1997, the Office of Legal
                     Counsel, Department of Justice advised the General Services Administration that
                     appropriations may be used to obtain business cards for suitable mission-related
                     agency employees. In November 1998, GAO concurred that an agency head may
                     reasonably determine that the appropriate use of business cards by agency employees
                     who deal with outside organizations will further the agency's statutory mission and
                     therefore constitutes a proper expenditure.


                          CARDA                                                                   CARD B
                                                 Stephen A.            M<:-l.~pghlill
                                                 f}jr~':"vl
                                                 Of:j" .., of   A<1n(hl~str3tjoo




                                                 :>1.M)Emrcl:ll'iW                                                                     Stc.~fJht·1i 1\. !'>;ld,~tt~hHn
                                                 Wllshill#M.. DL' 204-h                                                                            1."lin;(.t..."
                                                                                                                                       O:':-i.,'" cof   .~.J'~l   ;.) ".l,r"tl'ln


                                                                                                                   i;i1!t(:dSrult's
                                                 Plt(,.\.:: 20l-:W';·:\111                        iUI;;:.,''-!(,ti(=:c::tl   TlOO~ ('illumis:~;oll
                                                 ~ ..,,\:   20220::--21'.18                                        _"il;-ll;,~, ....x Sw.
                                                f'.:-M'lll:   md;"'I~I;"'«j?u.'1!L:..g..,\,                   y,,:[,:;t«.)~<'l'""   OC :(;·B&




                          CARDC                                                                   CARDD

                                          Stephen A. MdAlughUn
                                                     Director
                                            allin: ,)f Adininisuauou
                                                                                                                                                                     Ol"fj(.'cofAdLllinisf{;,tjclIl



                                                                                                                                                                           500      J-;:Slrf...-t   SW
                                                                                                                                                                      Weehingjon. IX: 2(Ml3t:


                                  suo to: Stl:cet SW. WMhi.l.1gtuu. D<' 2e·U6
                                  Ph.1UC: 202·2U~·,~Ul Eax: ::::02':WS·r!9-ll;                                        Phone: 201·21)S-"IJf                    Fa x      202-205-n~J8
                                          F-.MI1il: mdaltghJ.Ul@muk.~u,                                                         F-M~il -lndatl~hliu':~'(~U~'II,;.I;."'\'




                                          Business cards designed by the Office of Publishing.




March 1999 Semiannual Report                                                                  8
Review of Legislation, Regulations, and Commission Policy
                       As set forth in the IG Act, a duty and responsibility of the Inspector General is to
 Legislation and
                       review existing and proposed legislation a~d regulations relating to programs and
 Regulations
                       operations ofthe Commission. OIG reviewed proposed legislation and commented on
                       one notice applicable to the Commission's rules of practice and procedure.

                       l'G.7" 436. The House passed.~ bill titled "Government Waste, Fraud, and Error
  Proposed             ~ ~ Reduction Act of JWI)           on February 24, 1999. The bIll had provisrons on
  Legislation          non-tax debt and debt collection, including that agency heads must report annually on
                       delinquent non-tax debt over $1 million and the inspector general must review the
                       report. OIG is considering the bill as part of an on-going inspection of the
                       Commission's efforts to collect non-tax debt.

                       7G.7"     305. A bill titled "Office ofInspector General Oversight Council" was
                       ~ ~introduced in the House of Representatives on January 6, 1999. The bill
                       would amend the IG Act by adding a council to oversee and review OIG actions and
                       activities. OIG reviewed the bill which was referred to the Committee on Government
                       Reform.


I Pri vacy Act         Privacy Act Report on Revised and New Systems of Records. On December 9,
                       1998, OIG reviewed the draft: notice on Privacy Act System of records and provided
                       comments on the security access records, parking and mass transit subsidy records,
                       and computer access records. OIG comments were primarily to clarify or simplify the
                       notice. Most of the comments were incorporated into the final notice.

                       OIG suggested that the publication ofthe notice would be an opportune time to amend
                       the Commission's Freedom of Information Act (FOIA) regulations as suggested in
                       OIG Inspection Report 02-98, Review ofCommission Policies for Marking Controlled
                       Data. The FOIA regulations need to be amended to permit contractors, bidders, and
                       others who have an administrative relationship with the Commission to receive notice
                       before release of their submission under FOIA by marking the submission, and
                       including an appropriate reference to nondisc1osable confidential business
                       information. This suggestion was not incorporated by the Office of General Counsel.
                       The Office was in the process of drafting amendments to the Commission's rules to
                       address a number of issues. The OIG suggestions have reportedly been incorporated
                       into the draft.

                       The Inspector General also has the responsibility to review all proposed Commission
  Commission
                       directives. OIG evaluates the impact that new or revised procedures will have on
  Policy
                       economy and efficiency of programs and operations, and to minimize the potential for
                       fraud or abuse. OIG reviewed and commented on 14 draft: internal rules. Subjects
                       included the ethics program, publishing Commission publications, preparing internal
                       directives, attendance and leave, staff research papers, printing business cards,
                       preparing action jackets, records management, funds control, and mission and
                       functions statements for the Offices of Administration, Publishing, and Facilities
                       Management.


  March 1999 Semiannual Report                                   9
I Policy for OIG      In December 1998, the National Archives and Records Administration (NARA),
                      withdrew General Records Schedule 22, Inspector General Records, which authorized
                      the disposal of the Inspector General files. OIG revised the Privacy Act notice to
                      reflect NARA's withdrawal of the schedule. OIG revised the Retention and Disposal
                      sections ofITC-3, Office ofInspector General Investigative Files (General) and ITC-4,
                      Office of Inspector General Investigative Files (Criminal).

                      OIG also drafted a records schedule in March 1999 in accordance with new guidance
                      from NARA. The draft was submitted to the agency records management officer who
                      is coordinating an update of the Commission schedules with NARA.

                      OIG reviewed the u.S. Marshals Service revised Policy Directive 99-13, entitled

~--I
I Deputation          "Special Deputation Program." The revised policy included a new requirement that
                      each deputized agent certify that he or she has "prior law enforcement experience of
                      at least one year." This change affects inspectors general with deputized agents, which
                      does not currently include the Commission.




 March 1999 Semiannual Report                                   to
LIAISON ACTIVITIES

____I
I ECIE/PCIE           The Inspector General is an active member of the inspector general community. She
                      is a member of the Executive Council on Integrity and Efficiency (ECIE), which
                      consists primarily of the inspectors general at the 34 Federal entities designated in the
                      1988 amendments to the IG Act. She also participates in activities sponsored by the
                      President's Council on Integrity and Efficiency (PCIE), which consists primarily ofthe
                      Presidentially-appointed inspectors general. The ECIE and PClE have identical
                      functions and responsibilities to promote integrity and efficiency and to detect and
                      prevent fraud, waste, and abuse in Federal programs.

                      The Inspector General is a member of an ad hoc committee addressing issues on
 OIG Independence     auditor independence. In prior periods she participated in efforts to persuade the
                      American Institute of Certified Public Accountants (AICPA) to revise language
                      proposed by the AICPA's Ethics Committee on independence which excluded some
                      statutory government auditors. The suggested language was not incorporated into the
                      AICPA exposure draft issued for comments. Additional comments were submitted and
                      the final ruling had not been issued as of March 3 I, 1999.

                      The committee is also coordinating with GAO staff about desired changes in the
                      Government Auditing Standards definitions of independence. At a February 1999
                      meeting, the GAO Advisory Committee reached consensus that ECIE inspectors
                      general should be included in the independence section of the Standards, but have not
                      agreed on specific language.

                      OIG is also following two cases that relate to OIG independence. The cases concern
                      the issue of whether an OIG is a "representative of the agency" for purposes of the
                      Federal Weingarten rule. Generally, the Federal Weingarten rule gives an employee the
                      right to request union representation during any agency interview in which the
                      employee has a reasonable belief that the interview will result in disciplinary action.
                      At the Commission, OIG voluntarily adopted a policy to allow union representatives
                      to attend OIG interviews. Statutory interpretations that an OIG employee is a
                      representative of the agency are generally viewed as impeding OIG investigative
                      independence and directly contradicting the statutory structure of the IG Act.

                      One case was argued before the Supreme Court on March 23, 1999. On behalf of the
                      National Aeronautics and Space Administration (NASA) and NASA OIG, the Solicitor
                      General argued that a NASA OIG investigator was not an agency representative and
                      was insulated from agency control by the structure ofthe IG Act. The second case was
                      heard by an Administrative Law Judge (ALJ) ofthe Federal Labor Relations Authority.
                      The ALJ found the National Labor Relations Board (NLRB) OIG violated an
                      employee's Weingarten rights. The ALJ would not defer his ruling until after the
                      Supreme Court addressed these issues because he found that the case before the
                      Supreme Court involved a presidentially-appointed inspector general in contrast to the
                      NLRB whose inspector general is appointed by the head of the agency.




 March 1999 Semiannual Report                                    II
                      The Honorable Pete Sessions, Chairman of The Results Caucus, spoke with the

--_I
I Congress            inspector general community on February 10, 1999. Congressman Sessions is a
                      proponent of reductions in Federal spending as well as the elimination of fraud, waste
                      and abuse, and is a strong advocate for many issues that are of importance to the
                      inspector general community. He intends to promote interactive sessions with the
                      inspectors general and members of the oversight community in the executive branch
                      and in Congress to strengthen relationships that will better serve the interests of the
                      American taxpayer.


I GAO                 The IG Act states that each inspector general shall give particular regard to the

---I                  activities of the Comptroller General of the United States with a view toward avoiding
                      duplication and ensuring effective coordination and cooperation.

                      GAO initiated three reviews during this period. These were on the financial operations
                      of the International Monetary Fund, country-of-origin labeling of imported fresh
                      produce, and OIG semiannual reporting requirements.

                      The Inspector General had provided input on the semiannual reporting requirements
                      in a broader scope survey instrument in the prior reporting period. In November 1998,
                      she participated in a focus group meeting with ECIE inspectors general to discuss the
                      semiannual reporting requirements.

                      GAO issued one report entitled:

                                -- Information on Operational and Staffing Issues (GAO/AIMD-99-29),
                                  January 4, 1999.

                      The Commission is identified in an attachment as having an inspector general. This
                      report included no recommendations for the Commission.




 March 1999 Semiannual Report                                   12
                                                                                            Attachment A
INFORMATION REQUIRED BY THE ACT

Certain information and statistics based on the activities accomplished during this period are required by
section 5(a) of the IG Act to be included in the semiannual reports. These are set forth below:

Section 5(a)

(I), (2), (7)   OIG did not identify any significant problems, abuses or deficiencies relating to the
                administration of programs.


(3)             Corrective action has been completed on all significant recommendations which were
                described in the previous semiannual reports.


(4)             No matters were referred to prosecutorial authorities. There were no prosecutions or
                convictions.


(5)             No reports were made to the Chairman that information or assistance requested by the
                Inspector General was unreasonably refused or not provided.


(6)             A listing by subject matter is located in Attachment C.


(8), (9)        Four audit reports were issued during this period; no reports had recommendations on
                questioned costs or funds that could be put to better use. See Tables I and 2.


(10)            There are no audit reports issued before the commencement ofthe reporting period for which
                no management decision has been made by the end of the reporting period.


( 11 )          No significant revised management decisions were made during the reporting period.


( 12)           There were no significant management decisions with which I am in disagreement.




March 1999 Semiannual Report                        13
                                                                                              Attachment B



SUMMARY OF AUDIT REPORTS
Title:                 Evaluation of the Commission's Efforts to Prepare for Sunset Reviews

Report Number:         IG-O 1-99

Report Date:           October 30, 1998

Findings:              The objective of this audit was to evaluate the impact of the sunset review provisions
                       on the Commission workload, and the adequacy of the Commissions's preparation
                       to conduct activities mandated by the Uruguay Round Agreements Act.

                       OIG found that the Commission complied with the requirements of the
                       Administrative Procedures Act, and published the final sunset rules in sufficient
                       time to meet statutory requirements. The Commission efforts to locate historical
                       documents, obtain staff, and provide for related expenses were also sufficient to
                       conduct sunset reviews.

                       The two offices with the greatest need for additional staff developed assumptions
                       which were used as a basis for calculating work year estimates. Based on those
                       assumptions, the calculated workyears were fairly accurate. However, the workyear
                       estimates were not based upon an adequate analysis of the transition duty orders.
                       Other deficiencies involved hiring issues, such as which offices need staff, whether
                       appointments would be on a temporary or permanent basis, and when employees
                       would be hired.

                       Multiple findings involved the budget process. Some offices did not identify
                       workyears and request staff consistent with the Budget Committee proposal. Some
                       offices did not accurately report both work year data and staff requests. The FY 1999
                       Budget Justification did not present the resources estimated by the Budget
                       Committee as needed for the sunset reviews, but a much lower level adopted by the
                       Commission.

                       OIG found that the activity code established to record hours worked on sunset
                       reviews was improperly defined and inconsistently used. As a result, the FY 1998
                       data may not be useful for making future estimates and justifications for resources
                       needed.

                       OIG also found that the estimated workyears proposed by the Budget Committee
                       were not consistently reflected in the office budget packages for FY 1999. In
                       addition, the workyears reported in the office budget packages did not accurately
                       reflect the number of staff requested. The office budget packages for the FY 2000
                       Budget Request were reasonably consistent with the Budget Committee proposal and
                       FY 1999 staffing plan.




  March 1999 Semiannual Report                                   14
Recommendations:      OIG recommended that the Director of Operations, as Chair of the Budget
                      Committee:

                      -- Confirm that the Commission wants to track hours spent on sunset reviews. If so,
                      review the definition of the code and revise as necessary; and notify all office
                      directors whose staff participate in sunset reviews that the code is to be utilized
                      when recording time; and

                      -- Ensure that the Commission's FY 2000 Budget Justification accurately reflects the
                      Commission's decisions for workyears and positions for title VII resources.

                      The Director of Operations and General Counsel disagreed with our finding on
                      resource estimates, particularly that the analysis was inadequate. The Director of
                      Operations agreed with the findings and recommendations on the budget.




 March 1999 Semiannual Report                                  15
Title:                 Review of the Commission Methods Used to Compose Publications

Report Number:         IG-02-99

Report Date:           December 24, 1998

Findings:              The objective of this audit was to identify the most efficient and cost effective
                       methods to compose Commission documents.

                       The Commission practice is to allow offices to decide whether and which documents
                       will be sent to the Office of Publishing for composition. Only a third of the recent
                       Commission publications were composed by the Office of Publishing. The Office
                       oflnvestigations did not send any reports on title VII investigations, and section 337
                       reports do not require composition. The Office of Industries was the primary user,
                       mostly for Industry and Trade Summaries and some section 332 reports. The Office
                       of Economics also submitted International Economic Reviews and section 332
                       reports. The reports not submitted to the Office of Publishing were formatted by the
                       program staff using word processing software.

                       OIG found that the Commission did not have a written policy on which documents
                       are to be submitted to the Office of Publishing for composition, or the method to be
                       used to compose documents. Further, the Commission did not have procedures for
                       document preparation and submission. Program staff used multiple software
                       packages to prepare documents with varying degrees of expertise. The Office of
                       Publishing spent a significant amount of resources "undoing" the format drafted by
                       program staff. Cleaning up documents is part of composition, but minimizing this
                       step makes the process more efficient. The Office of Publishing was often not
                       involved in the report process until it received a report for composition, and program
                       staff generally had a poor understanding of the composition process.

                       Since the majority of documents were composed using word-processing packages
                       and this method was preferred by most offices, the Commission should adopt word-
                       processing as the standard method for composing documents.

Recommendations:       OIG recommendations to the Director of Administration included that he:

                       -- Draft a Commission policy that addresses which documents, if any, are to be
                       submitted to the Office of Publishing for composition, and the method to be used to
                       compose such documents; and

                       -- Establ ish guidel ines for processing documents that address the use ofstandardized
                       software, and form and format of documents, timing and feedback.

                       The Director of Administration agreed with the need for a policy, guidelines, a
                       training program and coordination with the program offices.




  March 1999 Semiannual Report                                  16
Title:                 Evaluation ofthe Commission's Preparation for the Year 2000

Report Number:         IG-03-99

Report Date:           February 9, 1999

Findings:              The objective of this evaluation was to determine if progress by the Commission in
                       addressing the year 2000 conversion is adequate, and to identify areas wherein the
                       Commission must be pro-active to achieve the goal of complete conversion by
                       January 1,2000.

                       The scope and severity of the impact of Y2K on the Commission's mission
                       accomplishment cannot be known with certainty. The Commission will likely
                       experience some disruption because of the Y2K problem since it relies heavily on
                       automated systems and components that contain embedded electronics to accomplish
                       its mission. The extensive use of commercial products in the Commission's
                       information technology architecture limits the Commission's ability to resolve
                       problems, since the Commission is dependent on third parties to provide Y2K
                       compliant solutions. This limitation is offset by efforts in recent years to replace
                       hardware and software with commercial products that are certified to be Y2K
                       compliant.

                       The extent of the impact of the Y2K problem on Commission operations was not
                       documented or well understood. Neither of the first two phrases (awareness or
                       assessment) in addressing Y2K were completed on a Commission-wide basis.

                       Although some progress had been made, the Commission had not implemented an
                       institutional approach to the Y2K problem. The Commission had not established an
                       oversight body, appointed a single responsible and accountable authority, developed
                       a policy, or assigned roles and responsibilities for Y2K compliance to its
                       organizational components. The Commission had not allocated adequate resources
                       to understand or fix the problem.

                       Overall, Commission efforts to address the Y2K problem were insufficient to ensure
                       a reasonable level of risk to uninterrupted operation in the year 2000. The
                       Commission lacked the basic structure, tools, resources, and knowledge to provide
                       a reasonable risk of uninterrupted ·operation. The Commission lacked the program
                       management structure, orchestration of efforts, and assignment of resources
                       necessary to tackle this problem.

Recommendations:       OIG recommended that the Director of Operations:

                       -- Ensure that all systems susceptible to Y2K problems have been identified;

                       -- Assemble an integrated project team consisting ofa representative for each system
                       to coordinate Y2K efforts;




  March 1999 Semiannual Report                                  17
                     -- Develop a Y2K policy establishing the Commission's acceptable level of risk
                     considering the potential impact of Y2K problems;

                     -- Increase awareness ofY2K among Commission managers and provide technical
                     training, as time allows, for Commission employees directly involved in developing
                     technical solutions; and

                     -- Develop and implement a Y2K action plan.

                     On January 27, 1999, the Chairman designated the Director of Operations as the
                     agency official to oversee the Commission's efforts to prepare for Y2K. He was
                     given the authority necessary, with the support of the Chairman, to respond to
                     recommendations across management lines; and to effectively and decisively address
                     concerns regarding systems located within the Office of Operations as well as in
                     offices throughout the agency. Office directors were notified to give priority
                     attention in providing support and resources to successfully assist the Director of
                     Operations in preparing and implementing the agency's response.




                     Terry Crawford, a contract employee with the Office ofinformation Services, places
                     a sticker on an employee's computer that is ready for the year 2000.




March 1999 Semiannual Report                                 18
Title:                Audit of the USITC Financial Statements for Fiscal Years t 998 and t 997

Report Number:        IG-04-99

Report Date:          March 31,1999

Findings:             The objectives of this audit were to issue an opinion as to the fairness of the USITC
                      financial statements for FYs ending September 30, 1998, and 1997, in presenting the
                      financial condition and results ofoperations; a statement on the adequacy ofinternal
                      controls; and a statement on compliance.

                      The auditors expressed the following opinions:

                      -- The statements of the financial position ofUSITC as of September 30, 1998, and
                      1997, present fairly, in all material respects, the financial position of USlTC, and the
                      results of its operations and its cash flows for the years then ended in conformity
                      with general accepted accounting principles, except that management has elected not
                      to depreciate fixed assets.

                      -- The internal control structure and its operation were considered to have two
                      material weaknesses: accounting for fixed assets and accounts receivable. In
                      addition, several other areas of concern are reported in the management letter.

                      -- Test results disclosed no instances of noncompliance with laws and regulations
                      applicable to USITC that would have a material effect on the financial statements.

                      In addition to the material internal control weaknesses, the auditors found other
                      weaknesses in the USITC's financial management operations, as summarized below.

                      -- No reconciliations were performed offixed assets in either FY 1997 or FY 1998.
                      A number of small items, such as chairs, laptops, and software, were unnecessarily
                      classified as fixed assets. Further, the records were not adjusted for disposition of
                      these items.

                      -- Procedures did not exist to ensure that accounts receivable arising from fines and
                      penalties levied by USITC were reported to the Office of Finance and Budget and
                      recorded. Further, procedures were often not followed in order to establish debt by
                      USITC employees, and when indebtedness by USITC employees was established,
                      receivables were not recorded.

                      -- The imprest fund operations did not comply with U.S. Treasury regulations.

Recommendations:      OIG recommended that the Director ofAdministration ensure that USITC policy on
                      fixed assets is followed, procedures are developed to appropriately record accounts
                      receivable, security for automated data processing systems is improved, and U.S.
                      Treasury requirements are followed for the imprest fund operations.




 March 1999 Semiannual Report                                   19
                     OIG also recommended that the Director of Administration seek a policy decision
                     from the Commission as to whether financial statements are to be prepared. The
                     Chairman approved the Director's proposal that the Office of Finance and Budget
                     will prepare annual financial statements in accordance with the Office of
                     Management and Budget guidelines on form and content.

                     The Director of Administration agreed with the findings and resolution was reached
                     on all of the recommendations.




                               Letitia Thorne, Legal Documents Assistant, Office of the Secretary,
                                   at the Lektriever which is properly classified as a fixed asset.




March 1999 Semiannual Report                                   20
                                                                                 Attachment C


AUDIT REPORTS BY SUBJECT MATTER

                                                                                     Funds To
            Report                Report     Questioned   Unsupported   Ineligible   Be Put To
             Title                Number       Costs         Costs        Costs      Better Use


PUBLIC INVESTIGAnONS AND RESEARCH STUDIES

Evaluation of the Commission's    IG-01-99
Efforts to Prepare for Sunset
Reviews

ADMINISTRATION

 Review of the Commission         IG-02-99
 Methods Used to Compose
 Publ ications

Audit of the USITC Financial      IG-04-99
Statements of Fiscal Years 1998
and 1997

 ASSEMBLING & ANALYZING ECONOMIC AND TECHNICAL INFORMAnON

 Evaluation of the Commission's   IG-03-99
 Preparation for the Year 2000




March 1999 Semiannual Report                  21
                                                                                   Table I


       REPORTS WITH OUESTIONED COSTS
                                                                  Dollar Value

                                              Number of   Questioned Unsupported
                                               Reports      Costs       Costs



       A.   For which no management
            decision has been made by the
            commencement of the period             0          0              0


       B.   Which were issued during the
            reporting period                       0          0              0

            Subtotals (A+B)                        0          0              0


       C.   For which a management decision
            was made during the reporting
            period                                 0          0              0

            (i)    Dollar value of
                   disallowed costs                0          0              0

            (ii)   Dollar value of costs
                   not disallowed                  0          0              0


       D. For which no management
          decision has been made by
          the end of the reporting
          period                                   0          0              0

            Reports for which no
            management decision was
            made within six months of
            Issuance                               0          0              0




March 1999 Semiannual Report                  22
                                                                   Table 2


       REPORTS WITH RECOMMENDATIONS
       THAT FUNDS BE PUT TO BETTER USE
                                              Number of   Dollar
                                              Reports     Value


       A.   For which no management
            decision has been made by the
            commencement of the period             0       0


       B. Which were issued during the
          reporting period                         0       0

            Subtotals (A+B)                        0       0


       C.   For which a management decision
            was made during the reporting
            period                                 0       0

            (i)    Dollar value ofrecom-
                   mendations that were
                   agreed to by management         0        0

            (ii)   Dollar value of recom-
                   mendations that were
                   not agreed to by
                   management                      0        0


       D. For which no management
          decision has been made by
          the end of the reporting                 0        0
          period

            Reports for which no
            management decision was
            made within six months of
            issuance                               0        0




March 1999 Semiannual Report                  23
   p~ Ue       tki4   ~ 'Zefunt
            ~~4
'J;:tWeH g'~, 1/i4«at 1~ Sfteda£i4t,
          lJ"ia~P~
